TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          The Taxpayer Advocate Service
                           Can More Effectively Ensure
                         Low Income Taxpayer Clinics Are
                         Appropriately Using Grant Funds



                                           July 19, 2011

                              Reference Number: 2011-10-067




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.
                                                     .


 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


THE TAXPAYER ADVOCATE SERVICE                         WHAT TIGTA FOUND
CAN MORE EFFECTIVELY ENSURE LOW
                                                      Our review identified that while additional
INCOME TAXPAYER CLINICS ARE                           procedures and controls have been
APPROPRIATELY USING GRANT FUNDS                       implemented since our last audit, the TAS can
                                                      take additional actions to more effectively
                                                      ensure the LITCs are using grant funds
Highlights                                            appropriately. Specifically, TAS personnel did
                                                      not perform in-depth analyses during their site
Final Report issued on July 19, 2011                  visits to the LITCs to independently validate that
                                                      the clinics met the program requirements for the
Highlights of Reference Number: 2011-10-067           funds received. As a result, there is an
to the Internal Revenue Service National              increased risk that clinics could be using
Taxpayer Advocate.                                    taxpayer funds to assist taxpayers in ways not
                                                      intended by Congress.
IMPACT ON TAXPAYERS
                                                      TIGTA also determined that TAS management
The goal of the Low Income Taxpayer Clinic            has not implemented a process to prioritize its
(LITC) program is to provide low-income               visitations and primarily visits new clinics or
taxpayers who are involved in controversies with      those that have not been visited in the prior
the Internal Revenue Service (IRS) with free or       three years. A methodology in which TAS
nominal cost legal assistance and to provide          personnel prioritize which clinics to visit based
taxpayers for whom English is a second                on their analysis of available information could
language with education on their taxpayer rights      enable the TAS to identify those clinics that may
and responsibilities. Taxpayer Advocate Service       not be adhering to LITC program requirements.
(TAS) personnel did not perform in-depth
analyses during their site visits to the LITCs to     WHAT TIGTA RECOMMENDED
independently validate that the clinics met the
legal requirements for the funds received.            TIGTA recommended that the National
Without performing comprehensive reviews of           Taxpayer Advocate develop and implement
the clinics, taxpayers cannot be assured that         revised procedures to require more
their tax money is being used to assist qualified     comprehensive site visits, require that all clinics
taxpayers involved in tax controversies with the      capture and maintain a minimum level of
IRS, as intended by Congress.                         information to support income and controversy
                                                      determinations, and develop and document a
WHY TIGTA DID THE AUDIT                               process for identifying which clinics will be
                                                      selected for site visits.
This audit was initiated to evaluate the actions
taken by TAS management to improve the                In their response, TAS management partially
administration of the LITC grant program and          agreed with our recommendations, stating that
determine whether those actions resolved              they have begun implementing significant
conditions identified in prior TIGTA audits.          changes to the site assistance visit process.
                                                      However, they stated it would be inappropriate
Congress designated the IRS to provide                to verify client incomes and amounts in
administrative oversight and guidance for the         controversy absent clear, specific statutory
LITC program. From the program’s inception in         authority. Without this verification, TIGTA
1999 through April 2003, the Wage and                 remains concerned the TAS is not fully ensuring
Investment Division had this responsibility within    clinics are using taxpayer funds for their
the IRS. In May 2003, the IRS Commissioner            intended purpose. The TAS did not agree to
transferred this responsibility to the TAS.           develop and document a formalized process to
                                                      identify clinics for visitation. TIGTA believes a
                                                      documented process will assist the TAS in
                                                      focusing its limited resources on the clinics most
                                                      in need of assistance and/or oversight.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 19, 2011


 MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Taxpayer Advocate Service Can More
                             Effectively Ensure Low Income Taxpayer Clinics Are Appropriately
                             Using Grant Funds (Audit # 201010003)

 This report presents the results of our review of Low Income Taxpayer Clinic (LITC) program.
 The overall objective of this review was to evaluate the actions taken by Taxpayer Advocate
 Service management to improve the administration of the LITC grant program and determine
 whether those actions resolved conditions identified in prior Treasury Inspector General for Tax
 Administration audits. This audit is included in our Fiscal Year 2011 Annual Audit Plan and
 addresses the major management challenge of Providing Quality Taxpayer Service Operations.
 This is a follow-up review to a Fiscal Year 2005 Treasury Inspector General for Tax
 Administration report, which found significant weaknesses in complying with the legal
 requirements of the LITC program.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations) at (202) 622-8500.
                    The Taxpayer Advocate Service Can More Effectively Ensure Low
                     Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          More Effective Oversight Is Needed to Ensure That
          Low Income Taxpayer Clinics Are Meeting the
          Intent of Congress ......................................................................................... Page 5
                    Recommendations 1 and 2: .............................................. Page 7

                    Recommendation 3:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measure ................................................................ Page 15
          Appendix V – Management’s Response to the Draft Report ....................... Page 16
        The Taxpayer Advocate Service Can More Effectively Ensure Low
         Income Taxpayer Clinics Are Appropriately Using Grant Funds




                        Abbreviations

IRS               Internal Revenue Service
LITC              Low Income Taxpayer Clinic
TAS               Taxpayer Advocate Service
TIGTA             Treasury Inspector General for Tax Administration
                 The Taxpayer Advocate Service Can More Effectively Ensure Low
                  Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                             Background

The Low Income Taxpayer Clinic (hereafter referred to as the LITC or clinic) grant program was
initiated under a provision of the Internal Revenue Service (IRS) Restructuring and Reform Act
of 1998.1 With this program, Congress wanted to offer free or nominal cost legal assistance to
low-income taxpayers who are involved in controversies with the IRS. Each year, clinics
wanting to participate in the LITC program submit an application package to the IRS. If
accepted, the IRS provides the clinics with grant funds to assist low-income taxpayers in their
area for up to 3 years. The LITCs also provide education on their taxpayer rights and
responsibilities to taxpayers for whom English is a second language.
Since the inception of the program, the total funding awarded for LITC program grants has
increased significantly, from $1.5 million in 1999 to $9.5 million in 2009. The numbers of
clinics and the areas represented have also increased.2 Figure 1 shows the funding awarded,
number of clinics, and areas represented each year since inception of the program.
                        Figure 1: LITC Program Grant Funding, Clinics,
                             and Areas Represented (1999–2009)

                                         Grant
                                       Funding              Number           States/Territories
                      Year             Awarded              of Clinics         Represented
                      1999            $1.5 million              34                   19
                      2000            $4.4 million              70                   33
                      2001              $6 million             102                   39
                      2002              $7 million             127                   43
                      2003              $7 million             138                   49
                      2004            $7.5 million             134                   51
                      2005            $7.4 million             145                   51
                      2006             $8 million              150                   52
                      2007             $8 million              154                   52
                      2008            $8.6 million             154                   53
                      2009            $9.5 million             162                   52
               Source: Internal Revenue Bulletins and News Releases.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Areas include the 50 States, District of Columbia, Puerto Rico, and Guam.
                                                                                                              Page 1
                 The Taxpayer Advocate Service Can More Effectively Ensure Low
                  Income Taxpayer Clinics Are Appropriately Using Grant Funds



Low Income Taxpayer Clinic Grant Application Package and Guidelines (Publication 3319)
explains the LITC program requirements and award process. The LITC program is not intended
to help taxpayers prepare their tax returns. Clinics are only allowed to prepare tax returns if it is
ancillary to the education of a taxpayer for whom English is a second language and/or when it is
necessary to resolve a taxpayer’s controversy with the IRS. Grantees may include accredited
law, business, or accounting schools or a nonprofit organization. Clinics must submit interim
and year-end financial reports along with a description of their goals, strategy, and program
results to the IRS. Failure to provide this required information can result in the loss of grant
funding. Clinics with an approved program plan can receive grant funding for up to a
3-year period.
Clinics that receive grant funding to represent taxpayers in controversies must ensure the amount
in controversy generally does not exceed $50,000 per taxable year.3 In addition, these clinics
must ensure that at least 90 percent of the taxpayers they represent have incomes which do not
exceed 250 percent of the poverty level. The poverty level is based on the size of the family unit
and is published annually by the Department of Health and Human Services. Figure 2 shows the
2009 poverty levels and maximum taxpayer income amounts for the LITC program.
                            Figure 2: 2009 Poverty Levels and
                      Maximum Taxpayer Income for the LITC Program

                                                                  Maximum Taxpayer
                        Size of                Poverty              Income for the
                      Family Unit               Level4             LITC Program
                             1                  $10,830                   $27,075
                             2                  $14,570                   $36,425
                             3                  $18,310                   $45,775
                             4                  $22,050                   $55,125
                   For each additional
                                                $3,740                     $9,350
                       person, add
                Source: The 2009 Health and Human Services Poverty Guidelines.

In addition to its responsibility for granting funds to the LITCs, the IRS is also required to
provide administrative oversight and guidance for the LITC program. From the program’s
inception in 1999 through April 2003, the Wage and Investment Division had this responsibility
within the IRS. In May 2003, the IRS Commissioner transferred this responsibility to the

3
 Internal Revenue Code Sections 7463 and 7526.
4
 The poverty levels for Alaska and Hawaii are higher than the 48 contiguous States, Washington, D.C., and
Puerto Rico.
                                                                                                            Page 2
                The Taxpayer Advocate Service Can More Effectively Ensure Low
                 Income Taxpayer Clinics Are Appropriately Using Grant Funds



Taxpayer Advocate Service (TAS). To monitor the operations of the LITCs, the TAS relies
upon information submitted by the clinics in interim and final reports each year along with
annual visitations to selected clinics.
In a prior review,5 the Treasury Inspector General for Tax Administration (TIGTA) evaluated
whether the LITC program was in compliance with program requirements. During that review,
we found that program goals and performance measures were needed, clinics were not
submitting required reports timely, and the reports contained inconsistencies. The TIGTA also
determined that site visits performed by the TAS were not comprehensive or timely.
This review was performed at the IRS National Headquarters in the Taxpayer Advocate Office in
Washington, D.C., during the period August 2010 through January 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
 Progress Has Been Made but Further Improvements Are Needed in the Administration of the Low Income Tax
Clinic Grant Program (Reference Number 2005-10-129, September 21, 2005).
                                                                                                    Page 3
                    The Taxpayer Advocate Service Can More Effectively Ensure Low
                     Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                         Results of Review

Our review identified that while additional procedures and controls have been implemented since
our last audit, TAS management can take additional actions to more effectively ensure LITC
clinics are appropriately using taxpayer funds. Specifically, TAS personnel do not perform
sufficient testing during their site visits to LITC clinics to independently validate that the clinics
met the program requirements for the funds received. As a result, there is an increased risk that
clinics could be using taxpayer funds to assist taxpayers in ways not intended by Congress. In
addition, more effective oversight could assist TAS management in potentially identifying fraud,
waste, or mismanagement of LITC grant funds. This is especially important given the current
economic environment and the increased focus by the Administration, Congress, and the
American people on Federal Government accountability and efficient use of resources. We
raised this issue during our last audit. Since that time, the IRS has granted approximately
$42 million to LITCs.
We also determined TAS management has not implemented a process using detailed criteria to
prioritize its visitations and primarily visits new clinics or those that have not been visited in the
prior 3 years. A methodology in which TAS personnel prioritize which clinics to visit based on
their analysis of available information could potentially better focus limited TAS resources. For
example, we identified six clinics that the TAS visited for the first time during the 2009 grant
cycle6 even though these clinics had received funds as early as the 2005 grant cycle.
Since our last review in Fiscal Year 2005, the TAS has made several improvements to the
LITC program in an effort to improve its oversight of the clinics. Specifically, we determined
that TAS personnel performed tax compliance checks on all clinics during the 2009 grant cycle
prior to the clinics receiving grant funds to verify they were compliant with all Federal tax
responsibilities. In addition, TAS management has established a process to ensure all
participating clinics’ interim and final reports are received timely. TAS management has also
updated Publication 3319 to include additional guidance that should be followed by the clinics
and drafted performance measures to assist them in evaluating the success of the program. They
plan to implement these measures for the upcoming 2012 grant cycle.
While these actions are a positive step in improving oversight of the LITCs, we believe TAS
management must perform comprehensive reviews of the clinics to ensure the information
reported by the clinics is accurate. Without performing comprehensive reviews of the clinics,
taxpayers cannot be assured that their tax money is being used to assist qualified taxpayers
involved in tax controversies with the IRS as intended by Congress. In addition, this increased

6
    The period January 1 through December 31 is referred to as a grant cycle.
                                                                                                Page 4
               The Taxpayer Advocate Service Can More Effectively Ensure Low
                Income Taxpayer Clinics Are Appropriately Using Grant Funds



oversight will provide increased assurance that taxpayer funds are not being inappropriately used
by clinics.

More Effective Oversight Is Needed to Ensure That Low Income
Taxpayer Clinics Are Meeting the Intent of Congress
The TAS needs to improve its oversight of the LITC program to ensure that the clinics are
offering assistance to low-income taxpayers involved in controversies with the IRS. To monitor
the operations of the LITCs, the TAS relies upon information submitted by the clinics in interim
and final reports each year along with annual visitations to selected clinics. However, we
determined that TAS management does not perform sufficient in-depth analysis during their site
visits to verify that the self-reported information by clinics is accurate and the clinics are using
taxpayer funds as intended. In addition, TAS management should better document the process
used when selecting clinics for site visitations.

More in-depth analysis should be performed during site visits to ensure clinics
are using taxpayer funds for their intended purpose
Although clinics report their accomplishments in their interim and final reports, they are not
required to submit any supporting documentation that could be used by TAS management to
substantiate the information in those documents. As a result, this information should be verified
by TAS management during site visitations to each specific clinic. In our prior review, we
reported that TAS management was not ensuring all LITC program requirements related to
income and controversy limits were met by clinics during site visits. In this audit, we determined
that the site visits performed by TAS management are still not detailed enough to ensure the
clinics are using taxpayer funds for their intended purpose.
Specifically, we reviewed the 46 site visits performed during the 2009 grant cycle and
determined that TAS personnel are still not verifying the income levels of taxpayers assisted by
the clinics, whether the taxpayers are involved with a tax controversy, or whether the amount of
the tax controversy is less than $50,000. Publication 3319 strongly encourages the clinics to use
an intake form to gather information on individual taxpayers that come to the clinic, including
their income. It also states that during a visit, TAS management may review the clinic’s intake
procedures. However, our review of the 46 site visit reports did not indicate that the intake
forms were reviewed during the site visits performed. Instead, the 46 site visit reports prepared
by TAS personnel indicated that TAS personnel would generally review the clinics’ office
location and accessibility, hours of operation, and outreach and education efforts. The reports
did not contain any information as to whether the taxpayers being assisted met low-income
requirements, the tax controversy amounts, or whether this information was reviewed by TAS
personnel during the visitation. By not verifying this information, TAS management cannot


                                                                                              Page 5
               The Taxpayer Advocate Service Can More Effectively Ensure Low
                Income Taxpayer Clinics Are Appropriately Using Grant Funds



ensure the clinics are following the intent of the LITC grant program and are entitled to receive
taxpayer funds.
In addition, TAS management does not require the clinics to use a standardized form to capture
information related to the assistance provided. TAS management stated they provide blank
intake forms to new clinics as a guide, but do not require the clinics to use the same form or
mandate that information supporting income or controversy limits is tracked by all clinics.
Therefore, clinics could use different formats and capture varying amounts of information related
to their operations. Further, the TAS does not currently require that the LITCs capture and
maintain information necessary to make income and controversy determinations. This increases
the risk that all necessary information is not available for verification by TAS personnel during
site visits.
Current procedures do not require TAS analysts to verify whether the clinic met low-income
requirements or whether the amount of the tax controversy was generally less than $50,000.
TAS management agreed that site visit reports for 2009 were not comprehensive, and they are
developing new procedures related to how site visits should be conducted. In our prior audit, we
also expressed concerns with TAS management’s deficiency in verifying income levels and
controversy limits for taxpayers receiving assistance at the clinics. At that time, TAS
management expressed concern that their review of private client files of the clinics may violate
the attorney-client privilege and indicated they would consult with other Federal grant-making
agencies to determine how they verify grantee information while maintaining client
confidentiality. We did not identify any evidence that this process was completed. Since our last
audit, the IRS has granted approximately $42 million to LITC clinics.
During this audit, TAS officials again advised us that to respect the attorney-client privilege
between the taxpayer and the clinic, TAS reviewers do not obtain or validate specific taxpayer
information such as income and controversy cases. We remain concerned that this policy
prevents the TAS from performing its required duties as a grant administrator. In addition, we
question whether review of certain information (e.g., the taxpayer’s name and Social Security
Number) impacts the attorney-client relationship if it does not disclose confidential discussions
documenting legal assistance provided to the taxpayer by the clinic. The Office of Management
and Budget Uniform Administrative Requirements for Grants and Agreements With Institutions
of Higher Education, Hospitals, and Other Non-Profit Organizations (Circular No. A-110)
Section 53(e) states the Federal Government awarding agency has the right of timely and
unrestricted access to any books, documents, papers, or other records or recipients that are
pertinent to the awards in order to make audits, examinations, excerpts, transcripts, and copies of
such documents. As such, we believe the TAS can review additional information collected by
the clinic to verify that the clinics are meeting income and controversy program requirements
without infringing on the attorney-client privilege.



                                                                                            Page 6
               The Taxpayer Advocate Service Can More Effectively Ensure Low
                Income Taxpayer Clinics Are Appropriately Using Grant Funds



More comprehensive reviews of the clinics by TAS will provide taxpayers increased assurance
that their tax money is being used to assist qualified taxpayers involved in tax controversies with
the IRS, as intended by Congress. In addition, this increased oversight will provide increased
assurance that taxpayer funds are not being inappropriately used by clinics.

Recommendations
The National Taxpayer Advocate should:
Recommendation 1: Develop and implement revised procedures to require that more
comprehensive site visits are performed and consistently documented by TAS personnel,
including additional methods to verify whether clinics are meeting the LITC program
requirements related to taxpayer income levels and controversy limits.
       Management’s Response: TAS management agreed and stated they have begun
       implementing significant changes to the site visit process, including performing an
       individualized previsit assessment; creating a written visit plan; and documenting the
       procedures, findings, and recommendations resulting from the site visit. Management
       stated that they can fulfill their oversight responsibilities by verifying internal controls
       and procedures, as opposed to individual client records.
Recommendation 2: Require that all clinics capture and maintain a minimum level of
information to support income and controversy determinations. TAS personnel should review
applicable documentation during site visits to ensure clinics are providing assistance to the
low-income taxpayers intended by Congress.
       Management’s Response: TAS management partially agreed with our
       recommendation and stated that LITC program guidelines already require grantees that
       provide controversy services capture, maintain, and report aggregate information about
       income and controversy determinations. Management stated that TAS personnel will
       review internal controls and procedures during site visits, but TAS personnel will not
       access taxpayer-specific information.
       Office of Audit Comment: TAS management did not address the intent of our
       recommendation, which was to ensure detailed, supporting information related to the
       specific taxpayers assisted is captured by the clinics for use by TAS management to
       verify income and controversy limits. In their response, TAS management stated that
       IRS Publication 3319, Part II.D, currently requires grantees to maintain records on each
       taxpayer represented and whether they satisfy the income levels and also provides
       definition and guidance for making this determination. Guidance and definition can be
       considered a form of an upfront, preventive control to help ensure grantees understand
       their legal requirements and how to comply with them. Furthermore, the TAS site visits
       are a form of after-the-fact detection control because the TAS personnel review internal

                                                                                               Page 7
               The Taxpayer Advocate Service Can More Effectively Ensure Low
                Income Taxpayer Clinics Are Appropriately Using Grant Funds



       controls and procedures and meet with the clinic staff to obtain a walkthrough of the
       intake process to ensure the staff understand and are using the procedures as written.
       However, this approach is missing the essential step of testing the controls by reviewing
       samples of the clinic’s records to ensure the staff are completing the intake forms
       accurately and in conformance with requirements. Without testing the controls, TAS
       management cannot be assured that clinic staff are maintaining accurate records and that
       they are meeting the requirement to serve low income taxpayers.
       TAS management did not agree with our recommendation to verify that clinics are
       serving taxpayers meeting program income and controversy limits due to their concerns
       with the attorney-client relationship. However, we believe TAS management can verify
       income and controversy limits without violating the attorney-client relationship. As a
       result, we believe the TAS should reevaluate its decision to rely solely on the site visit
       walkthroughs and discussions and should expand the reviews to include testing the
       clinics’ compliance with procedures. We still believe TAS management should perform
       testing during site visits to verify the self-reporting currently done by the clinics related to
       the taxpayers assisted that met the income and controversy requirements of the LITC
       program. By not verifying this information, TAS management may be unaware of any
       grantee violations and may continue to provide grant money to those clinics. We remain
       concerned that the TAS is not fully ensuring that clinics are using taxpayer funds for their
       intended purposes.

TAS management can better prioritize which clinics should be selected for site
visitations
Based upon a recommendation in our prior audit, TAS management agreed to develop a
weighted criteria list to determine which clinics to visit each year. Our review showed that
TAS management visited 46 (28 percent) of the 162 clinics receiving funds in the 2009 grant
cycle. However, we determined TAS management has not documented a process to support why
these clinics were selected for visitations. Instead, TAS management informed us they primarily
visit new clinics or those that have not been visited in the prior 3 years. We still believe that a
documented methodology in which TAS personnel prioritizes which clinics to visit based on
their analysis of available information could potentially better focus limited TAS resources. For
example, visitations could be identified based on various factors, such as missing/incomplete
reports, indications of tax return preparation, or the amount of grant funds received. This may
enable the TAS to identify for site visits those clinics that may not be adhering to LITC program
requirements.
Although we previously recommended TAS personnel visit new clinics prior to granting any
LITC funds, the LITC program office’s policy is to visit newly established clinics within the first
6 months of the grant year. We determined there were 10 clinics receiving funds for the first
time in 2009. One clinic withdrew from the program, leaving 9 new clinics requiring visits

                                                                                               Page 8
                 The Taxpayer Advocate Service Can More Effectively Ensure Low
                  Income Taxpayer Clinics Are Appropriately Using Grant Funds



within the first 6 months. Based on our review of case documentation, we determined that TAS
management did not visit 2 of the 9 clinics receiving funds for the first time in the 2009 grant
cycle within the first 6 months of operation. One clinic was visited almost 8 months after
receiving funds, and one was not visited at all by TAS personnel during the 2009 grant cycle. In
addition, of the other 46 visitations made by TAS personnel in 2009, 6 were made to clinics for
the first time even though these clinics had received funds in prior years (3 received funds in
2008, and 3 had initially received funds in 2005).
TAS procedures require that analysts visit returning clinics7 on a 3-year rotation. We determined
that 17 clinics were selected for visitations in 2009 because they had not been visited within the
last 3 years. TAS management stated that the remaining 15 clinics were selected for site visits
for various reasons, such as the type and amount of outreach performed by the clinics and steps
that could be taken to better publicize the clinics’ services. However, the reasons for visiting
these clinics were decided ad hoc by TAS personnel and were not part of a formal documented
visitation process to identify or prioritize which clinics needed more oversight and should be
visited.
Clinics are required to provide TAS management with two reports for each grant year describing
their accomplishments, including the number of taxpayers assisted. The interim report is due
July 31 during the grant year, and the final report is due March 31 after the year end.8 We
sampled 40 clinics that received funds in the 2009 grant cycle and determined that all
40 submitted their reports as required with the exception of 1 clinic which was terminated from
the program. While TAS personnel performed a high-level review of these reports to identify
missing information or seek clarification for some issues, they should incorporate the use of this
information into the formal documented visitation process in determining which sites to visit.
This may potentially make better use of limited TAS resources by identifying those clinics for
site visits that may not be adhering to LITC program requirements.
TAS management agreed that they could more effectively use available information to better
identify which clinics should be selected for site visits in the future. During our field work, TAS
management stated they were currently developing procedures to better prioritize the site visits,
including visiting new clinics within the first 60 calendar days of the grant year.9 By using this
information to assist in proactively identifying potential clinics requiring more oversight, TAS
management could better focus their limited resources.




7
  Returning clinics are those that also received LITC program grant funds the previous year.
8
  The due date is established in Publication 3319 for the given grant year.
9
  After we issued our discussion draft report, TAS management stated they plan to conduct visits to new clinics
within the first 120 days of the grant year.
                                                                                                            Page 9
               The Taxpayer Advocate Service Can More Effectively Ensure Low
                Income Taxpayer Clinics Are Appropriately Using Grant Funds



Recommendation
Recommendation 3: The National Taxpayer Advocate should develop and document a
formalized process for identifying which clinics will be selected for site visits to ensure limited
TAS resources are focused on those clinics that may not be adhering to LITC program
requirements. TAS management should also evaluate whether information provided by the
clinics can be used to assist management in prioritizing the site visitations.
       Management’s Response: TAS management partially agreed with our
       recommendation and stated they have restructured the LITC program office, are
       implementing performance measures and revising reporting forms for the 2012 grant
       cycle, and are developing and implementing a new database to capture information
       obtained during the systematic review of program plans, budgets, reports, and results.
       Office of Audit Comment: TAS management did not fully address our
       recommendation in their response. In our 2005 report, we recommended that
       TAS management develop a sampling methodology that prioritizes clinics for visitation
       based on indicators contained in clinics’ applications and Interim/Final Reports. At that
       time, TAS management agreed to develop a weighted criteria list to determine which
       clinics should be visited each year. During this review, we determined TAS management
       has established three types of site visits (orientation visit, operational review visit, and
       Local Taxpayer Advocate visit). However, they have not documented a process to
       support which clinics should be selected annually for one of these types of visits.
       We appreciate the assistance aspect of the site visits performed by TAS management and
       are not recommending that visitations be performed solely to “problem” clinics.
       However, TAS management was not able to conduct all the necessary orientation and
       operational review site visits according to the guidelines they established. If the TAS
       does not have sufficient resources to conduct the site visits, it will need a process to
       prioritize the clinics most in need of a site visit (whether they are a new clinic or a longer
       term one). We still believe that TAS management should develop a documented process
       of which clinics should be visited, including the analysis that will be performed by
       TAS personnel when identifying clinics for review. We believe that this will assist
       TAS management in focusing limited resources on those clinics most in need of
       assistance and/or oversight.




                                                                                             Page 10
                The Taxpayer Advocate Service Can More Effectively Ensure Low
                 Income Taxpayer Clinics Are Appropriately Using Grant Funds



                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the actions taken by TAS management to
improve the administration of the LITC grant program and determine whether those actions
resolved conditions identified in prior TIGTA audits. To accomplish the objective, we:
I.      Determined what actions have been taken by the TAS in response to recommendations
        made in the prior LITC grant program review1 and identified any new actions that were
        implemented.
        A. Interviewed the National Taxpayer Advocate and determined whether any
           performance measures for the LITC program have been implemented.
        B. Reviewed procedures developed and identified the process used by TAS management
           to monitor and track clinics not in compliance with reporting requirements.
        C. Reviewed Low Income Taxpayer Clinic Grant Application Package and Guidelines
           (Publication 3319) and the LITC program site visit procedures/checklists to determine
           whether they had been revised to clarify that an LITC that handles controversy cases
           by solely making referrals to another LITC will not be funded.
        D. Reviewed Publication 3319 and any available documentation related to the annual
           LITC program conferences held since our last review and determined whether the
           types of media broadcasts and articles that qualify under the LITC program were
           covered.
        E. Determined whether a policy was issued to conduct initial site visits for potential new
           clinics before the TAS awards the grant funds.
        F. Reviewed Publication 3319 and LITC program site visit procedures/checklist and
           determined whether new reporting forms are used by the clinics to obtain and record
           taxpayer income levels and controversy limits.
        G. Obtained and reviewed the methodology used by TAS management to determine
           which clinics to visit annually.
        H. Obtained and reviewed any documentation maintained by TAS management relating
           to contacts made to clinics determined to be tax noncompliant and determined

1
 Progress Has Been Made but Further Improvements Are Needed in the Administration of the Low Income Tax
Clinic Grant Program (Reference Number 2005-10-129, September 21, 2005).
                                                                                                   Page 11
              The Taxpayer Advocate Service Can More Effectively Ensure Low
               Income Taxpayer Clinics Are Appropriately Using Grant Funds



           whether they were informed their funds would be frozen and they will be removed
           from the LITC program if they do not become compliant.
       I. Determined whether any other new actions were implemented to address the previous
          audits’ recommendations.
II.    Assessed whether conditions identified in the prior audit continued to exist and whether
       corrective actions were effective.
       A. Selected a random sample of 40 of the 162 clinics receiving funds in the 2009 grant
          cycle and determined whether reports submitted by the LITCs were complete and
          accurate. We used a random sample to ensure each clinic had an equal chance of
          being selected which enabled us to obtain sufficient evidence to support our results.
       B. Determined whether new clinics receiving LITC grant funds were reviewed by
          TAS management.
       C. Determined whether TAS management effectively ensured clinics are in compliance
          with program requirements.
       D. Determined whether the TAS verified that clinics receiving grants in 2009 were in tax
          compliance and took appropriate action if any clinics were noncompliant.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: TAS procedures and policies for
administering the program to ensure LITCs are meeting the program requirements. We
evaluated these controls by interviewing TAS personnel and reviewing interim and final reports,
site visit reports, policies and procedures, and any other documentation related to the program.




                                                                                         Page 12
             The Taxpayer Advocate Service Can More Effectively Ensure Low
              Income Taxpayer Clinics Are Appropriately Using Grant Funds



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Joseph F. Cooney, Audit Manager
Terrey A Haley, Lead Auditor
Mary F. Herberger, Senior Auditor
LaToya R. Penn, Auditor




                                                                                  Page 13
             The Taxpayer Advocate Service Can More Effectively Ensure Low
              Income Taxpayer Clinics Are Appropriately Using Grant Funds



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy National Taxpayer Advocate TA
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: National Taxpayer Advocate TA




                                                                       Page 14
                The Taxpayer Advocate Service Can More Effectively Ensure Low
                 Income Taxpayer Clinics Are Appropriately Using Grant Funds



                                                                                         Appendix IV

                                   Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; $33.8 million (see page 5).

Methodology Used to Measure the Reported Benefit:
We determined that TAS management can take additional actions to more effectively ensure
LITC clinics are appropriately using taxpayer funds. Specifically, TAS personnel do not
perform sufficient testing during their site visits to the LITCs to independently validate that the
clinics met the program requirements for the funds received. As a result, there is an increased
risk that clinics could be using taxpayer funds to assist taxpayers in ways not intended by
Congress. In addition, more effective oversight could assist TAS management in potentially
identifying fraud, waste, or mismanagement of LITC grant funds.
In our Fiscal Year 2005 report,1 we also expressed concerns with TAS management’s deficiency
in verifying income levels and controversy limits for taxpayers receiving assistance at the clinics.
At that time, TAS management expressed concern that their review of private client files of the
clinics may violate the attorney-client privilege and indicated they would consult with other
Federal grant-making agencies to determine how they verify grantee information while
maintaining client confidentiality. We did not identify any evidence that this process was
completed. Since that time, $41.5 million in grant funds have been awarded to LITCs.
In a subsequent TIGTA Fiscal Year 2008 report reviewing the 2006 LITC grant cycle,2 we
reported that the IRS did not have sufficient controls in place to ensure the financial information
it reports regarding the LITC program is accurate. In that audit, we reported that $7.7 million in
grant funds disbursed to the LITCs in the 2006 grant cycle may not be accurately supported and
verified. As a result, we are not claiming the $7.7 million in this report. Calculation for
determining the outcome measure: $41.5 million - $7.7 million = $33.8 million.

1
  Progress Has Been Made but Further Improvements Are Needed in the Administration of the Low Income Tax
Clinic Grant Program (Reference Number 2005-10-129, September 21, 2005).
2
  Improved Controls Over Grants Provided to Low Income Taxpayer Clinics Would Lower the Risk of the
Inappropriate Use of Federal Government Funds (Reference Number 2008-10-142, dated July 31, 2008).
                                                                                                   Page 15
   The Taxpayer Advocate Service Can More Effectively Ensure Low
    Income Taxpayer Clinics Are Appropriately Using Grant Funds



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 16
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 17
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 18
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 19
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 20
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 21
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 22
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 23
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 24
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 25
The Taxpayer Advocate Service Can More Effectively Ensure Low
 Income Taxpayer Clinics Are Appropriately Using Grant Funds




                                                       Page 26
